 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 NATIONAL HEALTH SERVICE CORPS:
A SURVEY OF PROVIDERS, FACILITIES,             I
           AND STAFF




          +“’        “9
         ~v
                $
                          JUNE GIBBS BROWN
         ~                Inspector General
         s
         %
           %
           ++                 APRIL 1994
             ‘%d~a
              >              OEI-O9-91-O131O
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the OffIce of Audit Services, the
OffIce of Investigations, and the OffIce of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’SOftlce of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’SOftlce of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECTIONS

The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-to-date information on the efilciency, vulnerability, and
effectivenessof departmental programs. This report was prepared in the San Francisco regional
office under the direction of Regional Inspector General Kaye D. Kidwell and Deputy Regional
Inspector General Paul A. Gottlober. Project staff included:


SAN FRANCISCO                                         HEADQUARTERS

Elizabeth Celniker                                    W. Mark Krushat

Robert Gibbons                                        Barbara Tedesco

Deborah Harvey                                        David Wright

Ellen Kotler                                          Ta Zitans

Donald Loeb

Brian Pattison

Tom Purvis

Brad Rollin

 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 NATIONAL HEALTH SERVICE CORPS:
A SURVEY OF PROVIDERS, FACILITIES,                                I
           AND STAFF




                        SERVICE$
                   #J
             ~$$                   “G*



         #
             w
                                         JUNE GIBBS BROWN
         ~
                        ~     I.specter     General

         .c                /


                       L
                   >$
         %
          %.     ++
                  %d~a                         APRIL 1994
                                              OEI-O9-91-O131O
              EXECUTIVE                            SUMMARY

PURPOSE

This inspection assesses the impact of the National Health Service Corps’ policies,
practices, and requirements on health care providers and the facilities where they serve.

BACKGROUND

After years of sharp budget reductions, Congress and the Department of Health and
Human Services have initiated a revitalization of the National Health Service Corps
program (hereafter referred to as “the Corps”). As part of this revitalization, the Office
of the Secretary asked the Office of Inspector General (OIG) to provide information on
Public Health Service (PHS) and Corps policies and how they affect health care providers,
such as physicians, nurse practitioners, and dentists, and the facilities where they serve.
In addition, the Assistant Secretary for Legislation, the Assistant Secretary for Planning
and Evaluation, and the Assistant Secretary for Management and Budget requested that the
OIG provide information on the Corps’ ability to expand in the future:         -

The Corps is a Federal program designed to reduce or eliminate health professional
shortages in local communities. Congress created the Corps in 1970 to “improve the
delivery of health services to communities where health personnel and services are
inadequate to meet the health needs of the residents of such communities and areas. ” The
Corps grew rapidly until budget constraints and predictions of physician surpluses led to
reductions during the 1980s. As a result, the number of newly awarded scholarships
declined from a high of 2,380 single-year awards in 1979 to 40 multi-year awards in
1988.

Despite the continued prediction of a national physician oversupply, there is a shortage of
primary care providers. Approximately 22 million Americans lack adequate access to
medical care, and millions more lack adequate access to dental and/or mental health care.
Physician availability in counties with small populations is less than a third of the national
average. Inner cities face similar problems. Drug abuse and the AIDS epidemic have
made practicing medicine more dangerous and have driven providers into safer
neighborhoods.

Congress took two major actions to address these ongoing problems. In 1987, it
established the loan repayment program to attract providers who could serve immediately
in medically needy areas. Then in 1990, it enacted the Revitalization Amendments which
increased the Corps’ appropriation from $51 million to $91 million. Since then,
expansion has continued. According to PHS, the Corps will offer approximately
400 scholarships and 600 loan repayments in 1994, as contrasted to 49 and 112 in 1989.
We conducted telephone and in-person interviews with a national random sample of
302 providers from 13 strata. We asked them about recruitment, matching to a facility,
retention, defaulting, communication with PHS, and suggestions for improvement. We
also conducted telephone and in-person interviews with a random sample of 30 directors
from facilities where a Corps provider has served during the last 7 years. In addition to
the provider and facility director interviews, we conducted interviews with PHS central
and regional office staff. We asked the staff to address specific comments, concerns, and
problems that were reported by providers and facility directors, as well as recent efforts to
revitalize the Corps, the Corps’ expansion strategy, and its ability to expand in the future.

FINDINGS

Health facilities depend on the Cotps for quality providem

Ninety percent of facility directors believe that their facilities could not adequately serve
patients without Corps providers.

Acconiing to providers, directors, and PHS staff, more frequent and better
communicti”on is essential for Cops morale and expansion

The PHS officials do not routinely initiate contact, and providers and facilities do not
know whom to call with questions or concerns. Both PHS and related agencies do not
provide enough outreach and technical assistance to existing and potential facilities.

Providens and directons are dissatisfied with the matching process

Providers believe PI-IS gave them inadequate information and assistance before and during
the matching process. In addition, the vacancy lists do not contain complete and current
information.

Although many factors affect retention, facilities and PHS plizy key roles

More than one-third of scholars and loan repayers stay at Corps facilities more than a year
after their obligation has ended. Crucial factors affecting retention include facilities’
treatment of providers, family concerns, financial incentives, and professional support.

PHS policies are not jlexible enough to address pmvidem’ needs and preferences

More than 50 percent of providers cited problems with inflexible Corps policies and/or
suggested that PHS policies should be more flexible.

Competition, availability, and site limitations may hinder the expansion of the loan
repayment prognzm

Three factors limit the number of people who enter the loan repayment program:



                                               ii

(1) the small number of primary care providers overall, (2) competition from group
practices and managed care organizations, and (3) the limited number of attractive,
available sites approved for loan repayers.

Nu~e pmctitiwen,     physician assistants, and certified nume midwives frequently face
pmctice barriem

Almost three-fourths of nurse practitioners, physician assistants, and certified nurse
midwives reported facing barriers to providing medical care.

The check disbumement process could be improved

More than one-third of loan repayers and a few scholars described problems related to
their financial disbursements from PHS.

RECOMMENDATIONS

PHS shouki improve its communication with and support for providem and facilities

Good communication, adequate support, and outreach are essential to maintain and
increase provider morale and satisfaction.

PHS should consider more jlexible matching and pmctice policies

Increased flexibility would improve retention and provide better solutions to the shortage
of health care providers.

PHS should develop more accumte, complete, and up-to-date vacancy lists

Insufficient, inaccurate, and outdated information hamper the matching process.

PHS should use direct deposit to pay providers

Loan repayers and scholars have difficulties receiving their checks on time and at the
correct address.

AGENCY     COMMENTS        AND OIG RESPONSE

In written comments on the draft report, PHS concurred fully or in part with all of the
report’s recommendations and described the actions they already have taken or plan to
take. The full text of PHS’ comments appears in Appendix B. In response to PHS’
comments, we have made some technical corrections. We recognize and support the
numerous improvements that PHS has made and plans to make to improve communication
and support, flexibility, vacancy list accuracy, and monetary disbursement.




                                              ...
                                              111
                        TABLE                     OF      CONTENTS




EXECUTIVE        SUMMARY


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6


 � Dependence      ontheCorps.           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


 �   N~formore            frequent and better communication             . . . . . . . . . . . . . . . . . . . . 6


 � Dissatisfaction      withthematching           process . . . . . . . . . . . . . . . . . . . . . . . ...8


 � pHS’and facilities’roles in retention                . . . . . .. O.. O.O . . . . . . . .00.0...9


 .Inflexiblepolicies..o               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     11


 .~anrepaymentprogram                  expansio        n . . . . . . . . . . . . . . . . . . . . . . . . . . .    11


 � practice   barriers       ...,     . . . . . . . . . . . . . . . . . ...    D O . . . . . . . . . . . . .0     12


 •ch~kdisbursement...                  . . . . . . . . . ..    OO.O..      . . . . . . . . . . . . . . . . . .    13


RECOMMENDATIONS                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


A: Sample selection methodology, estimates, and confidence intervals . . . . . . . . .                           A-1


B: PHS comments            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l

                          INTRODUCTION

PURPOSE

This inspection assesses the impact of the National Health Service Corps’ policies,
practices, and requirements on health care providers and the facilities where they serve.

BACKGROUND

After years of sharp budget reductions, Congress and the Department of Health and
Human Services have initiated a revitalization of the National Health Service Corps
program (hereafter referred to as “the Corps”). As part of this revitalization, the Office
of the Secretary asked the Office of Inspector General (OIG) to provide information on
Public Health Service (PHS) and Corps policies and how they affect health care providers,
such as physicians, nurse practitioners, and dentists, and the facilities where they serve.
In addition, the Assistant Secretary for Legislation, the Assistant Secretary for Planning
and Evaluation, and the Assistant Secretary for Management and Budget requested that the
OIG provide information on the Corps’ ability to expand in the future.

History

The National Health Service Corps is a Federal program designed to reduce or eliminate
health professional shortages in local communities. Congress created the Corps in 1970
by enacting the Emergency Health Personnel Act. This legislation enabled PHS to send
volunteers and Federal health care providers to “improve the delivery of health services to
communities where health personnel and services are inadequate to meet the health needs
of the residents of such communities and areas. ” In 1972, Congress established a
scholarship program that allowed PHS to offer scholarships to medical students in
exchange for service in the Corps.

The Corps grew rapidly until budget constraints and predictions of physician surpluses led
to reductions during the 1980s. As a result, the number of newly awarded scholarships
declined from a high of 2,380 single-year awards in 1979 to 40 multi-year awards in
1988.

Millions of Americans Lack Adequate Access to Health Care

Despite the continued prediction of a national physician oversupply, PHS estimates that
approximately 22 million Americans lack adequate access to medical care, and millions
more lack adequate access to dental and/or mental health care. Physician availability in
counties with small populations is less than a third of the national average. Inner cities
face similar problems with physician access. Drug abuse and the AIDS epidemic have
made practicing medicine more dangerous and have driven providers into safer
neighborhoods.



                                              1
A major factor in this shortage is the lack of “primary care” providers.l Primary care
providers, in contrast to non-primary care specialists, provide a broad range of services to
meet patients’ health needs. In an area with few health care professionals, a primary care
provider may serve all of the public’s health care needs. Although the total number of
physicians has grown over the past several decades, the percentage who are primary care
physicians has declined.

Responding to the Primary Care Shortage

During the late 1980s and early 1990s, Congress took several steps to respond to the
shortage of primary care providers. Specifically, Congress:

   F�    established a loan repayment program in 1987 to complement the Corps’
         scholarship program by attracting health care providers who could serve
         immediately in medically needy areas and

   �     enacted the National Health Service Corps Revitalization Amendments of
         1990 which almost doubled the Corps’ appropriation from $51 million to
         $91 million.

Since then, expansion has continued. According to PHS officials, the Corps will offer
approximately 400 scholarships and 600 loan repayments in 1994, as contrasted to
49 and 112 in 1989.

Program Oversight

Depending on the region and State, a number of agencies are responsible for overseeing,
assisting, and supporting Corps providers and facilities. Within PHS, the Division of
National Health Service Corps and regional offices oversee most aspects of the program.
The Division of Scholarships and Loan Repayments, Division of Shortage Designation,
and Division of Fiscal Services also oversee and administer the program at the central
office level. At the regional, State, and local levels, PHS has cooperative agreements
with all 50 States and works with numerous primary care associations to help administer
the program. While their duties vary by region and State, these agencies generally help
facilities apply for Corps providers, help recruit and retain providers, and provide
continuing assistance. They also help providers obtain further training and education and
establish linkages with other health professionals.

HOW THE NATIONAL                 HEALTH         SERVICE       CORPS WORKS

The PHS helps match Corps providers to needy facilities in both rural and urban areas.
All providers must serve 1 year for each year they receive Corps support, with a


     1 The Corps’ list of primary care fields includes family practice, osteopathic general practice, pediatrics,
internal medicine, general psychiatry, obstetrics/gynecology,   dental general practice, nurse practitioner
practice, physician assistant practice, and certified nurse midwifery.


                                                         2
minimum 2-year commitment. Scholarship and loan repayment applicants experience
different application and site matching processes. Facilities undergo a separate application
process and are responsible for encouraging providers to remain in the community after
they complete their obligations.

How do providers enter the Coqos?

Students planning to enter primary care fields may compete to receive scholarships to pay
for their training. Students apply to PI+S’ Division of Scholarships and Loan Repayments
which scores each application. The PHS central and regional offices interview applicants
who receive high scores to ensure that they are aware of the program’s requirements and
the unique demands of serving a medically needy population. The PHS scores all
interviews and awards scholarships based on the combined score of the written application
and interview.

Loan repayment applicants enter the program when they finish their training and are ready
to start working. For the most part, providers either (1) obtain a list of eligible facilities
and complete the paperwork upon reaching an agreement to work for a facility or
(2) apply for and receive loan repayment through eligible facilities that use the Corps’
loan repayment program as part of a benefit package. In general, applicants automatically
receive loan repayment as long as they are qualified, licensed to practice in that State, and
match to an eligible facility. In addition to receiving salaries from facilities, loan repayers
receive lump-sum or quarterly checks from PHS to repay their loans. Loan repayers are
eligible to receive up to $35,000 per year.

How do facilities apply for providers, and how does PHS rank their need for assistance?

Individual facilities submit applications for providers to PHS. To be eligible for
assistance, the facility must be located in a federally-designated “Health Professional
Shortage Area” (HPSA). The criteria that PHS uses to designate HPSAS include
(1) the ratio of providers to area residents, (2) low birthweight, infant mortality, and
poverty rates, and (3) access to primary care services, taking into account the distance to
such services. Sites must be in the neediest HPSAS to be eligible for Corps assistance.
The PHS scores applications from facilities located within these high need areas and
places them on one of three vacancy lists:

  b    Health Professional Shortage Area Placement Oppotiuni~ List (HPOL):
       Scholarship recipients must fulfill their obligation at these facilities which are
       located in communities with the greatest need for providers. The PHS develops
       separate HPOLS for each medical specialty. The number of facilities on each
       HPOL is set by law--three facilities per available scholarship recipient--in order to
       ensure that the neediest communities have a good chance to obtain a provider. For
       example, if 16 family practitioners were available for placement, their HPOL
       would consist of the 48 facilities that have the greatest need for family
       practitioners.



                                               3
       Although the three-to-one ratio was designed to ensure that providers were offered
       an adequate selection of sites, the small number of available scholarships limited
       their options. In response, PHS recently began using a questionnaire to assess
       providers’ interests, spouses’ needs, and geographic preferences to add facilities to
       the HPOL if a provider’s placement there would result in a long-term solution to a
       community’s primary care shortage.

   F	 Loan Repayment VacancyList: These facilities generally have less critical need for
       providers than facilities on the HPOL. This list offers loan repayers more options
       in matching to a facility than the HPOL.

  P	   Volunteer VacancyList: Many sites meet the minimum criteria for Corps
       assistance but are not as needy as the sites on the HPOL or loan repayment list.
       The PHS makes a list of these sites available to providers who do not receive
       scholarships or loan repayment but wish to serve in a needy community.

How do providers get assigned to facilities ?

When scholarship recipients complete medical school and their residency, they must begin
serving their obligation. The first step is “matching” to--or reaching an agreement to
work for--an eligible site. The PHS provides scholarship recipients with the appropriate
HPOL for their medical specialty. Providers can attempt to get hired by any facility on
that list. The PHS may assign providers to facilities if they have not matched themselves
after 9 months.

Loan repayers have more options than scholarship recipients during the matching process.
The PHS provides copies of the HPOL and loan repayment vacancy lists to providers
interested in receiving loan repayment. Upon matching to an eligible facility, the provider
or facility submits the paperwork for loan repayment.

What are the requirements for providers who are serving their obligations?

Providers must meet certain requirements while serving at facilities. The PHS requires
that providers are licensed in their assigned States and that they engage in “full-time”
medical practice, defined as 40 hours per week. At least 32 hours per week (21 hours for
obstetricians) must be spent providing clinical services at the facility.

In addition, providers must meet all normal State requirements regarding their practice.
This is particularly an issue for nurse practitioners, physician assistants, and certified
nurse midwives, whose ability to practice independently and write prescriptions depends
on State law.

W%&happens to providers who experience problems while serving their obliga.tz”ons?

A difficult placement, poor relationship with the facility management, or any number of
other professional or personal problems may pose barriers to providers completing their


                                                4
obligations. The PHS conducts orientation sessions and makes efforts to familiarize
providers with the staff they should contact if they have problems. The PHS is supposed
to provide support and mediate disputes between providers and facilities. If the problems
persist, however, providers may request transfers or subsequently default on their
obligations. Generally, providers must serve at least 1 year at a facility before they are
eligible for a transfer. Providers who fail to meet any of the Corps’ requirements are
placed into default status. The PHS imposes severe penalties to discourage providers from
defaulting.

W%alhappens @er pmvidens complete their obligti”ons?

The PHS encourages facilities to develop effective plans to retain providers who are
completing their obligation in order to eliminate health provider shortages permanently.
Although the facility is primarily responsible for designing the retention package, PHS
may offer assistance and guidance to the provider and/or facility.

METHODOLOGY

We interviewed a national random sample of 302 Corps providers drawn from a universe

of 1,856. We selected providers from 13 strata, The strata were based on type of

assistance, year, and timing in the program. We included special strata for

(1) nurse practitioners, physician assistants, certified nurse midwives and

(2) obstetrician/gynecologists. During telephone and in-person interviews during the Fall

of 1992, we asked providers about recruitment, matching to a facility, retention,

defaulting, communication with PHS, and suggestions for improvement. For a more

detailed description of the sample selection methodology, please refer to the appendix.


We also conducted telephone and in-person interviews with a simple, random sample of

30 directors from the 2,284 facilities where a Corps provider has served during the last

7 years. We asked the directors about (1) the matching process, (2) recruitment and

retention, and (3) the Corps’ policies, staff, and providers.


In addition to the provider and facility director interviews, we conducted interviews with

PHS central and regional office staff. We asked the staff to address specific comments,

concerns, and problems that were reported by the providers and facility directors, as well

as recent efforts to revitalize the Corps, the Corps’ expansion strategy, and its ability to

expand in the future.





                                              5
                                        FINDINGS


HEALTH      FACILITIES        DEPEND ON THE CORPS FOR QUALITY                                  PROVIDERS

Ninety percent of facility directors,2 hereafter called “directors,” believe that their
facilities could not adequately serve patients without Corps providers. Both directors and
providers believe that the Corps’ presence has led to new or expanded services, greater
access to care, and improved financial stability.

Directors praise the overall quality of the providers. They are impressed with providers’
technical expertise and personal commitment. Many of them believe that without the
Corps they would not be able to attract the same quality of providers. Eighty percent of
directors say they need at least one more provider to offer adequate health care in their
communities. Because of their locations and inability to offer competitive salaries,
two-thirds of directors believe they will always need the Corps to recruit providers for
their communities.

However, approximately half of the loan repayers said they would have worked at the
facility even if they had not received loan repayment. Most of these providers said they
do not plan to stay at the facility just because the Corps repaid their loans.

ACCORDING TO PROVIDERS, DIRECTORS, AND PHS STAFF, MORE
FREQUENT AND BETTER COMMUNICATION   IS ESSENTIAL FOR CORPS
MORALE AND EXPANSION

Early and continuing contact educates providers and facilities about procedures, agency
responsibilities, and available assistance. Furthermore, communication helps avoid and
mitigate problems among providers, facilities, and Federal officers. Poor communication
can lead providers to default, request transfers, leave after their obligation, and/or
discourage others from joining the Corps.

Providers and directors offered comments about the lack of regular contact, a specific
contact person, outreach, technical assistance, and responsiveness of PHS. More than
35 percent of providers who call PHS with questions or concerns claim that PHS staff are
not responsive to their needs. Providers described receiving inconsistent interpretations of
policies and inadequate follow-up when they raised questions about problems they were
having in their assigned facilities.




   2 We included the confidence   intervals for all percentages   in this report in the appendix.


                                                        6
PHS officials do not routinely intie  contact, and providem and facilities do not know
whom to call with questz”onsor concerns

According to providers, PHS regional and central office staff did not routinely contact

them. More than one-quarter of all providers recalled no contact with PHS.

Fifty-six percent of scholars and 42 percent of loan repayers placed in 1991 believe PHS

does not contact them often enough.


Providers and directors often do not know whom to contact when they have questions or

concerns. Depending on the question, they may have to contact the regional office, the

primary care association, the State agency, or one of several divisions in the central

office. In addition, the responsibilities of many offices and agencies vary by region and

type of facility. Providers would prefer to have a single person to contact when they have

questions.


PHS and reWed agencies do not provide enough outreach and technical assistance to
exiti”ng and potential facilities

Although PHS officials acknowledge the importance of site development and recognize the
need to work with facilities to ensure that providers receive adequate professional and
financial support, site development has not been a PHS priority in recent y~s.        As a
result, many directors do not understand the roles and responsibilities of PHS and related
agencies. Furthermore, many new directors did not know about the Corps’ existence or
were unaware that the Corps is expanding. The lack of knowledge is especially evident in
facilities that do not receive Federal funds, facilities with high administrative turnover,
and/or small rural facilities.

Directors commented on the need for outreach and clearly defined roles among PHS and
related agencies. Directors rarely receive technical assistance from PHS, primary care
associations, or State agencies. Twenty-five percent of directors did not know that PHS
provides technical assistance, and 30 percent of directors recalled being offered technical
assistance by regional offices. Some directors were not aware that primary care
associations and State agencies help administer the Corps. Thirty percent of directors had
no interaction with primary care associations and State agencies.

Directors want more on-going technical assistance in areas ranging from the application to
provider retention. For example, approximately 50 percent of directors believe that the
application process is burdensome. Lacking technical assistance, facilities have trouble
collecting the data necessary for the Corps’ application. Insufficient or problematic data
can lead to denied applications for assistance.




                                             7
PHS officials recognize the need for revised management pructices to imprwe
communication and accommodate expansion

Regional office staff predict that expansion will force them to reduce their recruitment,
site development, and oversight activities. In response to these workload concerns, PHS
central office plans to rely on agreements with State agencies and primary care
associations to perform some of these vital functions. Both regional and central office
staff caution that some States will not be able to assume more responsibilities and that
specific guidance needs to be developed to define appropriate roles and responsibilities.

Expansion also will require greater communication and coordination among PHS
components. Staff in 9 out of 10 regions believe that the Division of Scholarships and
Loan Repayments and the Division of National Health Service Corps need to communicate
better, coordinate their workplans, and develop and implement consistent policies and
procedures. To address these concerns, program officials are examining ways to use their
resources more efficiently by improving their data and information systems and
simplifying reporting requirements.

PROVIDERS      AND DIRECTORS        ARE DISSATISFIED       WITH THE MATCHING
PROCESS

A majority of providers and one-third of directors were dissatisfied with the matching
process. More than 60 percent of providers who participated in the matching process
were dissatisfied with the number and variety of facilities available. Seventy percent of
scholars placed in 1991 were dissatisfied with the matching process, and 60 percent of all
providers who experienced a problem during their obligation attributed it to the matching
process. Providers and directors are dissatisfied with the matching process because
(1) they receive inadequate information from PHS and (2) the HPOL and loan repayment
vacancy list lack complete and current information.

Providers believe PHS gave them inadequate information and assistance before and
during the ma/thing process

Almost 30 percent of providers believe that PHS does not adequately describe the
matching process and the facilities available for placement. More than one-quarter of
providers who matched to a facility commented that they had expected the HPOL and the
loan repayment vacancy list to contain more facilities nationally or in specific areas.
Some providers further indicated that PHS staff gave them incorrect information about the
facilities that would be available.

Since 1989, PHS has made an effort to educate and prepare scholars better by
interviewing top applicants. Our data reflect this effort. More 1989 and
1991 scholarship recipients mentioned that PHS is providing information about available
locations and facilities and explaining how PHS develops the HPOL than prior scholars.




                                             8
Many providers do not recall receiving adequate assistance from PHS during matching.
More than half of the providers placed in 1991 recalled receiving only the list and no
further assistance. Some providers said this is due partly to PHS’ incomplete knowledge
of the facilities and surrounding communities.

The vacancy lists do not contain complete and current infotma.h”on

Directors and providers suggest that PHS should provide more timely and complete
information to facilitate matching. Twenty percent of directors believe that the
information on the HPOL and loan repayment vacancy list is inadequate and that providers
do not get a good picture of facilities. Providers further commented that the lists
contained outdated and incomplete information and listed facilities without vacancies.
Directors and providers suggested that an on-line, or otherwise continually updated,
system of eligible facilities be available. Similarly, several PHS staff suggested on-line
community profiles and tracking systems, which PHS is now developing on a pilot basis.

Directors also suggest that PHS provide additional information about the providers who
are looking for vacancies, so they can better market their facilities. They suggest that the
list of eligible providers include information such as language skills or providers’ outside
interests.

ALTHOUGH MANY FACTORS               AFFECT RETENTION,          FACILITIES      AND PHS
PLAY KEY ROLES

More than one-third of scholars and loan repayers stay at their assigned facilities more
than a year after they complete their obligation. Although the data do not show any
significant difference in actual retention between loan repayers and scholars, more loan
repayers say they plan to stay at the facility after their obligation. That may be due to the
fact that many loan repayers worked at the facility before joining the Corps.

Some providers credited personal satisfaction with their work as the reason for staying.
On the other hand, some mentioned conflicts with the facility’s administration as the
reason for leaving. Physician assistants and certified nurse midwives appear to have
higher retention rates than other providers. Furthermore, rural providers are more likely
to remain after their obligation than urban providers.

Providers and directors offered a variety of ways that PHS and facilities could improve
morale and retention. Increased flexibility of PHS policies is a common suggestion. We
discuss flexibility in more detail in the finding on page 11. Other suggestions to improve
provider morale and retention include (1) fair treatment of providers by facilities,
(2) financial incentives, and (3) adequate support of providers in their settings.




                                              9
Facilities’ treatment of providem is crucial to retention

Almost two-thirds of directors believe their role in retention is to offer providers exciting
and attractive work environments. Facilities with high retention rates cite fair treatment
of providers as the key to their success. These directors treat the providers as equals,
involve them in the decision-making process, and make them feel welcome in the
community. They believe this approach helps providers grow “roots” that may prevent
them from leaving.

Although providers also believe that fair treatment by facilities is essential for retention,
many described negative experiences. Some providers believe facility administrators’ lack
of understanding results in overly ambitious patient loads, poor working conditions for all
providers, and high turnover among medical staff. Some providers say they would be
more likely to stay if the facility gave them greater responsibility and autonomy, managed
workloads better, replaced incompetent administrators, and/or provided additional
opportunities for professional training.

Financiul incentives affect retention

Although factors such as family concerns and treatment by the facility are more important,
almost half of providers and 80 percent of directors believe adequate compensation is
crucial. Providers suggest that higher salaries and better benefits would make them more
likely to stay. Some providers also are willing to sign extended commitments in exchange
for repayment of additional educational loans. Others seek higher salaries because their
spouses cannot earn enough income in underserved areas. Some facilities with high
retention rates use incentive programs, in which salary bonuses are based on productivity.
Directors also suggest that tax breaks, bonuses that are not tied to productivity, and
Federal malpractice coverage for all facilities would increase retention.

Luck of professional suppoti can huti retention and mode

Providers stated that their inability to interact with other health professionals and the lack
of clinical and administrative support frustrates their attempts to provide quality care and
contributes to “bum-out.” Twenty-three percent of directors agree with providers that
professional support is essential for clinical success and retention. Both directors and
providers suggested that PHS place providers in settings that can ensure an adequate level
of support.

Provider “burn-out” is common in small practice settings. Several sampled providers
defaulted on their obligations, while others stayed simply because the community’s need
for their services was so great.

Providers in the private practice option have a special need for support and assistance,
because they are often in small practice settings and have the added responsibility of
running a business. Only a small number of providers exercise the private practice



                                              10
option, because most needy communities cannot support a financially viable private
practice.

PHS POLICIES ARE NOT FLEXIBLE              ENOUGH TO ADDRESS           PROVIDERS’
NEEDS AND PREFERENCES

More than 50 percent of providers cited problems with inflexible policies or suggested that
PHS policies should be more flexible. Providers believe that greater consideration of
individual situations in matching, transfer, and clinical practice policies would not hinder
the Corps’ ability to serve the neediest areas.

Many providers believe that inflexible matching policies hinder their productivity,
long-term retention, and lifestyle. Providers wonder why they are not allowed to choose
an area where they are more likely to stay permanently. Some providers leave their
families behind because of poor employment opportunities for their spouses or educational
opportunities for their children. Many providers reported that their placement choices
consisted solely of communities where they face discrimination or bigotry based on race,
gender, sexual orientation, or religion.

In an effort to address providers’ needs and wishes, PHS began using the Professional
Training Information Questionnaire in 1992. Most providers we interviewed had no
experience with this questionnaire, because they were already assigned to a Corps facility
or still in training.

Some providers want more flexible transfer policies so they can move if they encounter
problems at a Corps facility. By transferring, they could continue serving instead of
defaulting or leaving at the end of their obligation. Approximately one-quarter of
providers who attempted to transfer experienced difficulties. They stated that PHS offered
little or no assistance and discouraged their attempts to transfer.

Several PHS officials suggested that greater flexibility would bolster both recruitment and
retention. They specifically suggested that PHS offer (1) scholars more choices of
facilities during the matching process and (2) part-time options with extended payback
periods for all providers. Providers echoed these suggestions and said they would be
willing to extend their obligations in exchange for these options.

COMPETITION, AVAILABILITY, AND SITE LIMITATIONS                      MAY HINDER THE
EXPANSION OF THE LOAN REPAYMENT PROGRAM

The PHS may encounter difficulties attracting enough providers into an expanded loan
repayment program. Three factors limit the number of people who enter the loan
repayment program: (1) the small number of primary care providers overall,
(2) competition from group practices and managed care organizations, and (3) the limited
number of attractive, available sites approved for loan repayers.

The loan repayment program recruits from the limited pool of approximately


                                             11
11,500 primary care providers and general dentists who complete their training and enter
practice each year. 3 Some of these primary care providers are not available for loan
repayment service, because they already have service obligations to Federal, State, or
local governments or private organizations. Many additional internal medicine and
pediatrics residents are not available for loan repayment recruitment, because they choose
to specialize further in non-primary care fields.

Group practices and managed care organizations hire large numbers of primary care
providers to keep their costs down. Compared to most of the facilities where Corps
providers serve, group practices and managed care organizations offer higher salaries,
fewer on-call assignments, and better benefits. Furthermore, they are located in more
desirable communities. Recently, managed care organizations increased salaries and
financial incentives, such as fringe benefits and improved support services, to recruit and
retain primary care providers.4

At least half of the loan repayment applicants withdraw their applications because they
cannot find an approved facility that (1) has a current vacancy, (2) can support them
financially or professionally, and/or (3) they find attractive. Fewer than 43 percent of the
1,164 providers who submitted applications and sought placements in fiscal year 1993
found a placement.

NURSE PRACTITIONERS,                PHYSICIAN ASSISTANTS, AND CERTIFIED                          NURSE
MIDWIVES FREQUENTLY                  FACE PRACTICE BARRIERS

Almost three-fourths of nurse practitioners, physician assistants, and certified nurse
midwives reported facing barriers to providing medical care. The most commonly
mentioned barriers are physicians’ attitudes and the lack of prescriptive authority and
hospital admitting privileges. Several complained about their inability to receive payment
from Medicare and Medicaid for their services.

Providers offered suggestions on how to eliminate these barriers. Some suggested that
regional offices act as problem-solving resources for providers by knowing the State laws
and by working closely with the professional associations. Others believe PHS should
teach facility administrators and doctors about the services that these providers are trained
to perform and the type of support they need. The PHS staff agreed that facility
administrators should be educated better.



     3 Estimatebased upon data from (1) Third Report of the Council on Graduate Medical Education,
October 1992; (2) Health Personnel in the United States. Eighth Report to Con~ress. 1991, September 1992;
(3) the American Osteopathic Association; (4) the Association of American Medical Colleges; (5) the
American College of Obstetrics and Gynecology; (6) the American Dental Association; (7) the American
Academy of Physician Assistants; (8) the National Organization of Nurse Practitioners; and (9) the American
College of Nurse Midwives.

    4 Palsbo and Sullivan, The Recruitment Experience of Health Maintenance Orwmizations    for Primary
Care Physicians, The Group Health Association of America, Inc., May 1993, pp. i and 11.


                                                     12
Some facility administrators have changed their attitudes and are making better use of
nurse practitioners, physician assistants, and certified nurse midwives. Because facilities
must reduce their overhead and provide care to more people, they are realizing the value
of these providers. One-third of directors seek more of these caregivers, and some
facilities are striving to use them more effectively. One facility is part of an innovative
statewide pilot project that utilizes nurse practitioners in a system called “telemedicine.”
A nurse practitioner serves multiple counties in a fully equipped mobile unit and keeps in
direct contact with primary care and specialty physicians through the use of cellular
phones, video, and computers.

THE CHECK DISBURSEMENT              PROCESS        COULD BE JMPROVED

More than one-third of loan repayers and a few scholars described problems related to
financial disbursements from PHS. The most significant problems involved late checks
and checks with incorrect addresses, names, and/or amounts. Many providers also
reported difficulty when trying to rectify the problems. They stated that they did not
know whom to call, had to call multiple times, and received inadequate responses from
PHS .

The regional PHS staff echoed loan repayers’ concerns about the check distribution
process. Staff said check problems undermine their efforts to build professional
relationships with providers and unnecessarily increases their workload. The Division of
Scholarships and Loan Repayments recently instituted a toll-free number to alleviate the
situation.




                                              13
                    RECOMMENDATIONS

PHS SHOULD IMPROVE ITS COMMUNICATION                       WITH AND SUPPORT           FOR
PROVIDERS AND FACILITIES

Providers, directors, and PHS staff believe good communication, adequate support, and
outreach are essential to maintain and increase provider morale and satisfaction. To
improve communication and strengthen the Corps, PHS should consider:

  �	   exploring new and creative approaches, such as (1) conducting national orientation
       of each year’s new providers and (2) providing on-site support for both providers
       and facilities;

  �	   assigning each provider and facility a contact person and establishing a minimum
       level of contact;

  �    increasing outreach and educational activities for all new and existing facilities;

  �	   increasing technical assistance to facilities about (1) the application,
       (2) recruitment and retention methods, and (3) clinical and management practices;

  �	   educating facilities about the value of nurse practitioners, physician assistants, and
       certified nurse midwives; and

  �	   assuring that each provider clearly understands and is fully aware of all aspects of
       the Corps program prior to signing the contract.

PHS SHOULD      CONSIDER      MORE FLEXIBLE          MATCHING       AND PRACTICE
POLICIES

Providers, directors, and PHS staff believe increased flexibility would improve retention
and provide better solutions to the shortage of health care providers. Among other things,
PHS should consider:

  .    part-time options with extended repayment periods,

  �    deferments or time off for continued education, and

  �    more site choices.




                                              14
PHS SHOULD DEVELOP           MORE ACCURATE,           COMPLETE,       AND UP-TO-DATE
VACANCY LISTS

Providers and directors complained about the insufficient, inaccurate, and outdated
information available for matching. TO solve these deficiencies, PHS should consider:

  �	   developing a matching information system that can be continually updated (such as
       an on-line computer system);

  �    issuing quality assurance reports and descriptive profiles of facilities; and

  .�   providing facilities with more information about individual providers, such as their
       language skills and outside interests.

PHS SHOULD USE DIRECT DEPOSIT                TO PAY PROVIDERS

Participants in the loan repayment program and a few scholars have difficulties receiving
their checks on time and at the correct address. The PHS could alleviate these problems
and save money if it deposits payments directly into providers’ accounts.

AGENCY COMMENTS

In written comments on the draft report, PHS concurred fully or in part with all of the
report’s recommendations and described the actions they have already taken or plan to
take. The PHS expressed concern that the report does not reflect the program
improvements PHS has made since 1990, because most of the providers interviewed were
placed under policies developed prior to the 1990 legislation. The PHS also included
several technical comments. The full text of PHS’ comments appears in Appendix B.


OIG RESPONSE

In response to PHS’ comments on the draft report, we have made some technical

corrections. We recognize and support the numerous improvements that PHS has made

and plans to make to improve communication and support, flexibility, vacancy list

accuracy, and monetary disbursement. Although the majority of the providers we

interviewed were placed under policies that were developed prior to the 1990 legislation,

more than two-thirds of providers interviewed were still serving or not yet serving their

obligations. These providers expressed concerns about communication and support at the

time of our interview in late 1992. Their concerns are indicative of current

communication deficiencies despite the fact that they were placed under

pre-1990 policies.





                                              15
                               APPENDIX                    A


SAMPLE SELECTION           METHODOLOGY,           ESTIMATES,     AND CONFIDENCE
INTERVALS

Provider Sample Selection Methodology

We conducted telephone and in-person interviews with a random sample of 302 Corps

providers between September 1992 and January 1993. Working from prepared discussion

guides, we asked providers about their experiences with the Corps’ recruitment,

placement, and retention efforts. In order to analyze the impact of Corps policies on

specific providers, we seleeted our sample based on 13 separate strata. We based the

strata on the type of assistance the provider received (scholarship, loan repayment, or

volunteer) and the year in which the provider was placed or received the assistance (1986,

1989, or 1991). We established two additional strata to collect the individual experiences

of obstetrician/gynecologists, nurse practitioners, physician assistants, and certified nurse

midwives. A discussion of the strata follows:


  �	   Scholars--Awarded.     Scholars may be awarded their scholarship up to 7 years
       before they enter the placement process. We selected samples of 30 providers
       each from 3 different years based on when the scholarship was awarded. We
       asked these providers in greater detail about their experiences with Corps
       recruitment efforts.

  �	   Scholars--Placed.    To determine the impact of changes in placement policies, we
       selected samples of 30 providers each from 3 different years based on when the
       scholar was placed. We asked these providers in greater detail about the level of
       assistance they received in finding a site, their satisfaction with placement choices,
       and how available choices met with their expectations.

  b	   Volunteers.  Volunteers are providers who do not receive financial assistance.
       They want to practice in underserved areas and request Corps assistance in finding
       a facility. We selected samples of volunteer providers. We excluded their
       responses from our analysis, however, because the PHS universe was incomplete.

  �	   Loan Repayers.    Loan repayers enter the program and are placed in the same
       year. Since the loan repayment program was established in 1987, we sampled
       30 providers each from 1989 and 1991.

  �	   Obstetricians.  Due to the need for obstetric services in certain underserved areas,
       PHS officials and health care professionals told us that obstetricians face greater
       hardships than other Corps providers. To determine if this was true, we selected a
       separate sample of all 10 obstetricians who were placed in 1991.




                                            A-1
   E     Nurse Practitioners,         Physician Assistants,       and Certified Nurse Midwives.
        These providers may be hindered in their practice of medicine by current laws,
        regulations, and practice policies. We sampled the 44 nurse practitioners,
        physician assistants, and certified nurse midwives who entered the Corps in 1991.

We could not interview all sampled providers because some (1) had reloeated, (2) refused
to participate, (3) were involved in cases that were being reviewed by the Department of
Justice, or (4) had not completed their medical training. In addition, we interviewed
three providers twice based on their being awarded a scholarship in one year and placed in
another. The following chart summarizes the interviews that we conducted:


                                                               1986            1989          1991     ml

                  Scholars--Awarded                             29             29             30               88

                   Scholars--Placed                             26             29             30               85

                       Volunteers                                 6                6          10               22
                    Loan Repayers                              NA              30             30               60

                      Obstetricians                            NA              NA             9                 9
  Nurse Practitioners, Physician Assistants,
       and Certified Nurse Midwives                            NA              NA             41               41

Upon completion of the interviews, we coded all provider responses and entered the data
into a computerized database. Within each stratum, we weighted each provider’s
responses based on his/her representation of an equal share of the universe.

Eti”mates and confidence intervals

The chart below summarizes the estimated proportions and the 95 percent confidence
intervals for the statistics presented in the report.


 statistic
                                                 Point Estimate
                                                                               I       95% Confidence      Interval

 Proportion   of directors who believe their facilities could not adequately       serve patients without Corps
 providers
                                      I                                        I
                                      I               90.0%
                                                                               I            79.3% - 100%

 Proportion   of directors who say they need at least one more provider    to offer adequate health care
                                     I                                      #
                                      I              80.0%                             65.7% - 94.3%




                                                      A-2
        statistic

                                                           I Point Estimate
                                                                                     I     95% Confidence                    Interval
       Proportion      of directors    who believe they will always need the Corps to recruit providers


                                                 I              66.7%                           49.8% - 83.5%
                                                                                     I
       Proportion of loan repayers          who say they would have worked at the facility even if they had not
       received loan repayment


                                             I              59.5%                      50.8% - 68.2%
                                                                             I
       Proportion of those loan repayers who would have worked at the facility without loan repayment who do
       not plan to stay at the facility just because of loan repayment


                                                       I             67.7 %                   55.7% - 79.6%
                                                                                    I
      Proportion of providers          who called PHS with questions who claim that PHS staff are not responsive                   to
      their needs


                                                       I             35.7%                                    23.0% - 48.3%
                                                                                                  I
      P roportion     of providers     who recall no conbct      with PHS


                                            I              27.1%                          17.2% -37.1                        %
                                                                               I
      P roportion    of scholars placed in 1991 who believe PHS does not contact them often enough


                                                   I                56.2%            44.0% - 68.3%
                                                                          I
     Pr oportion of loan repayers placed in 1991 who believe PHS does not contact them often enough


                                                I             41.9%                                          30.2% - 53.7%
                                                                                               I
     Pr oportion of directors         who did not know that PHS provid~          twkiml        assisti~



     Pro portion of directors
                                                I
                                     who recall being offerd
                                                                    26.7%
                                                                   technical assistance
                                                                                               I       10.8% - 42.5%
                                                                                          by regional offices
                                                   1                                          I
                                                   I               30.0%
                                                                                         I                   13.6% - 46.4%
     Proportion     of directors     who had no interaction      with primary care associations           and State agencies


                                              I               30.0%                                         13.6% - 46.4%
                                                                                   I
    Proportion      of directors   who believe the application process is burdensome


                                            I                      48.3%                                    30.1 % - 66.5%
                                                                                           I
    Proportion      of directors   who were dissatisfied       with the matching process


                                               I                  33.3%                          16.5% - 50.2%
                                                                                        I
    Proportion of those providers who participate               in the matching process who were dissatisfied with the
    number and variety of facilities available

                                               I                                          1
u                                             I                   60.6%
                                                                                          I                48.9%   - 72.4%
                                                                                                                                        u




                                                                  A-3
Statistic

                                                    Point Estimate                      95% Confidence        Interval
                                       I                                        I
Proportion of scholars placed in 1991 who were dissatisfied          with the matching process

                                                        70.4%                   I            59.2%      - 81.6%

Proportion   of providers   who had a problem who attribute it to the matching process

                                                        60.2%                                48.5% - 71.8%
                                       I
Proportion of providers who believe that PHS does not adequately           describe the matching process and the
facilities available for placement

                                                        29.1%                   I            20.7% - 37.4%

Proportion of providers matched to a facility who expected the HPOL or the loan repayment                     vacancy list
to contain more facilities nationally or in specific areas

                                                        28.1 %                               18.4% - 37.8%
                                       I
Proportion of 1991 scholarship      recipients   who say PI-IS providd    information    on available facilities and
how the list is made

                                                        76.7%                  I             62.1% - 91.3%

Proportion of 1989 scholarship      recipients who say PHS provided       information    on available      facilities and
how the list is made

                                                        75.9 %                               67.3%      -84.49$
                                                                               I
Proportion of 1986 scholarship      recipients   who say PHS provided     information    on available      facilities and
how the list is made

                                                        38.5%                                28.5% - 48.5%

Proportion   of providers   placed in 1991 who recall receiving only the list and no further assistance

                                                        52.1 %                               43.0%      - 61.2%

Proportion   of directors who believe the information on the HPOL and loan repayment                 vacancy list is
inadequate   and that providers do not get a good picture of facilities

                                       I                20.0%                                5.7% - 34.3%

Proportion of providers who stay at facilities more than a year after they complete their obligation

                                                        37.9%                                21.4%    - 54.5%

Proportion   of loan repayers   who stayed at their facility after they completed       their obligation

                                                        49.4%                                33.7% - 66.3%

Proportion   of scholars who stayed at their facility after they completed      their obligation

                                                        47.1%                                31.0% - 63.4%
                                      I                                        I
Proportion   of loan repayers   who plan to stay at the facility after they complete their obligation

                                                        50.5 %                 I             38.8% - 61.7%




                                                        A-4
       statistic

                                              I             Point Estimate                 I      95% Confidence       Interval

       Proportion of scholars who have started serving their obligation who plan to stay at the facility after they
       complete the obligation
                                        1                                     I
                                              I         18.9%                 I          8.4% - 28.9%

       Proportion of providers placed in rural areas who stayed or plan to stay at the facility atler they
       complete their obligation

                                                                 39.7%                                    28.8% - 50.8%
                                                                                                        (90% Confidence)

       Proportion of providers placed in urban areas who stayed or plan to stay at the facility after they
       mmplete their obligation

                                                                 18.6%                                    10.6% - 26.4%
                                                                                                        (90% Confidence)

       Proportion   of directors   who believe their retention    role is to offer attractive work environments

                                                                 63.3%                                   46.1% - 80.6%

       Proportion   of providers   who believe adequate compensation           is crucial to retention

                                                                 44.6%                                   37.0%   - 52.2%

       Proportion   of directors   who believe adequate compensation          is crucial to retention

                                                                 80.0%                                   65.7%   - 94.3%
                                                                                           I
       Proportion   of directors   who agree professional    support is essential to clinical success and retention

                                                                 23.3%                                    8.2% - 38.5%

       Proportion   of providers   who cite problems     with inflexible policies or suggest more flexible policies

                                                                 51.7%                                   43.7% - 59.8%

       Proportion   of those providers   who attempted      to transfer who experienced        difficulties

                                                                 24.8%                                   13.8% - 35.6%
                                                                                          I
       Proportion of nurse practitioners, physician      assistants,    and certified nurse midwives who reported             facing
       barriers to providing medical care

                                                                 71.1%                    I              67.1%   - 75.0%

       Proportion   of directors   who seek more nurse practitioners,        physician   assistants,    and certified nurse
       midwives

                                                                 36.7%                                   19.4% - 53.9%
                                             I                                            I
       Proportion   of loan repayers who described problems            with financial disbursements       from PHS

                                             I                   33.5%                                   24.7% - 42.3%
                                                                                          I




                                                                 A-5



———_
                               APPENDIX                  B

                                   PHS COMMENTS




 #/ -’ +.
j’”
:
:
‘“%>
    $       DEPARTMENT OFmTH   &HUhWNSERVICES                Wbk He@MSI?IVIC8



                                                             RockvdbMO   20SS7

                                    W?14@4


            @nm?ARntQl


            Fxolu

                :     Zu3siszancSecretary for   Health

            Subject:	 Office of Insmctor General 10IG) Draft ReDOSt
                      “National Heaith Semite CLX&S: ‘A Survey ;f
                      Providers, Facilities, and Staff,” cIEI-O9-91-O131O
            To:       Inspector General, OS


            Attached are the Public Health Semite comments on the subject
            draft report. We concur fully or in ~     with all of the
            report’s recommendations and our c~    es describe the actions

            we have taken os Plan to take to imlwmnt   them. We have also

            included several iechn”cal comments-for your consideration.

                                 /4





            Attachment





                                          B-1
         PUBLIC         TH SERVIC z (PHs\ co~s        oN THEO FVIc~   OF
         I~sp~cToR     GENEWU   (oIG)  DUV   REpoR~   .NATIoN~  g~~
 s~c-
            ??
               co RPS:   A          0? PROVIDER           TV    AND SThFY.
                               QEI .&91+13&JJ=J5



The repo-n examined the Health Resources and Serrices

Administration’s National Health Se~ice Corps (NHSC)

placement cycles for Fiscal Years 1986, 1989, and 1991.
Although these placements were made over a five year span, all
=horts szudiad by the OIG were placed ~der policies
consistent with the previous (pre-1990) -C    legislation.
This is impomt    to stress because all of the areas of
concern expressed in this OIG repo~ regamng     the coho=s of
1986, 1989, and 1991 were recognized by the program
administrators and corrective plans were implemented to
-e      the zm5c.

Significant positive changes in program Grertion, management
and wersight have occxtxed in the last 4 1/2 years heg~g
with    program input into legislative changes resulting in a new
law, the NHSC RevitalizationAmendments of 1990 (Public     Law
101-597).     Sn addition, new leadership m m’s     Bureau of
Primary Care, Division of National Health Sdce       Corps, and
I)ivision   of Scholarships and Loan Repayments (DSLR), and a
staff reorganization in both divisions have improved program

management and focused the organization to better meet the

needs of the medically undeserved populations.


It is impomant to recognize, however, that changes in program

adminiswation may take sweral years to be realized in terms

of impact on providers in the field and on retention. The
scholarship        p~,      in  particular, spm   an average of nine
~           for P~Ysicims and foa= years for other providers from
@tial          award to completion of semice.    Substantial progress
has been made in ~rwing            the overall operation of the NHSC.
-les            of the ~rovments     are indicazed in our responses to
the OIG*S reconnaendations.The NHSC staff continuously
listens to its customers, undersexed people and communities,
and pximary care providers, and adjusts its policy to betzer
serve those mosz in need of primary care semices.

91G     Recommendution

1.	     The PBS should iqrove its coxmwcation            wi-A   and support
        for providers and facilities.


We concur and note that the NHSC has already taken and will
continue to take significant ac=ions to improve the levels of




                                 B-2

                                                                2


communication and suppo.-.to providezs and facilities.    Early

and    cmtinuing contact is one of the “new- NHSC’S main goals.

Therefore, the NIiSCis continuallyexamining its amrketig and

recruiting effo.-.sto assure that info~zion     p~ded    abou%

the programs is m~enx      and accurate, -d eval~ting ways to

Lsprove interaction with students in training and providers in

the field. Program managers are in the process of

stmdardizing the technical assistance and wersight

activities    that ase prwided through the PRS Regional Offices,

cooperative agreements, primazy care associations and

cfsntractors.

The NHSC has designed and implemented strategies to

Communicate program requirementsand benefits to new providers

and facilities, and to prospective providers. This spring the

lU3SCwill conduct the fo~    round of intividml intmiews

for all scholars. The scholars will be provided with detailed

izaformationabout the nature and requirements   of NiiSCsemice,
financial and se.~ice obligations,the site selection process,
and a sampling of current NHSC sites. In addition,    for the
past three years the NHSC has been conducting annual
oriermation seminars for new scholars and providers on a
nationwide basis. The PES Regional Offices ham been an
integral part of these orien~tion activities. Finallyt at

least annually -de NESC conducts conferences with new

providers including scholars, loan repayers, volunteers, end

non-obligated providers seining through the WC.


The NHSC has implemented procedures to ensure continuing
contact with prwide.~ once they are on site. Providexs are
being advised of whom they need to contact with respect to
different guestions or problems. Since the nature of the
provider’s questAons and concerns will varg depending upon
whether they are still in school, beginning semice, or
seeking continuing professionaleducation, the program is
working to assure that each provider knows the first point of
contact during all stages of the relationship with the NESC.
XIIaddition, the NKSC continues to mrk with sites to assure

that providers have salary and benefit packages comparable

with their peers in the c~     ty, and has provided clixQcal
suppo~. funding and locum tenens support which offer providers
~~.unities    to pursue educational activities on and off-
site. When new providess are placed  at a site they are
encouraged co serve at Least one year before transfening to a
new site. The initial placement is the result of a documented
need for prima.= care se--ices in that conmunity. The NliSCis
concerned abouz continuity of care, and the impact on the
C~ity     of the 10SS of a new pravider through a transfer.
When it is not possible for boti size and provide: to resolve
tieix differences, transfe: to another needy comnmity is




                         B-3
                                                                       3


    facilitated. Providers who default an the~- service
    obligation incur financial daaqes under the statuxory fo~a
    of three times printipal plus intezest, less any credit
    prorated for actual semice.
    The NESC’S technical assistanceactivitj.esaddress the

    application process, recruitment,retem~on, c~cal           and

    management practices. With respect to *e nurse praCEitiOnerS

    (NPs), physician assis~ts (Ph), and cetified nurse

    midtives (CNMs), we are wrkiag with tie PHS Regional Offices,

    State associations and professionalorgtizations to educate

    everyone involved on the team approach eo pr~        care, the

    full utilization of all primary care health professionals,      and
    how to reduce practice barriers.

    91G Recommendation
    2.�   The PIIS should consider mare flexible matching and
          practice policies.


    We concur witi the general thrust of us    re~endation,    but
    recogxize that  the program must operste within stauxoq
    l~tations.     The program has made many positive eff~    to
    increase the flexibility of the matching process, tie

    assuring that the primary mission of serring those most in
    need is ~tained.      The program now has expanded the number
    Of vacancies available per scholar, as compued with earlier
    Cohom , and has increased the number of vacancies available
    for providers interested in loan repayment.

    Howwer,   the number of choices available to scholars is
    prwided   for by statute: h        Vacancies for each scholar in
    a given discipline  andjor specialtY,   up to a maximum of 500
    vacancies. Far example, if there are 10 pediatricians
    amilable for semice, the Health Professionals Opportunity
    List (HPOL) for that group wuld contain 30 sites (10 times
    3).   15 there are 15 family nurse  practitioners available,
    there would be 45 sites on the list.     The program provLdes
    Scholarship recipients with the appropriate ~OL for their
    specialty while they are still in train$ng, one year prior to
    their targeted service date.
    Recognizing that there are frequently mOZS vacancies of
    highesz need “&an wuld be permitzed ~ the 3 co 1 szatutory
    limit, the program began to collect placement preferences of
    SchOIG”s using the Prafesslonal Training Information
    Questionnaire (PTIQ), co be used far consideration in the

    development of ‘de HPOL. This will be the third year in which

    the PTIQ is used to select high p=iarity sites *&at may more





                               B-4



—
                                                                4


closely meet providers’ preferences. This p~ts      the program
to meet 0%- pzimary mission, se.~ing people of greaZest need,
while considering  ‘Ae needs of our other imporcam customers,
prima.rrcare psoviders.
During the early decision alternative (EDA) phase of the
placement cycle,  provides have approximately nine months to
choose a site from the HPOL that will best meet their persomal
and professional needs. It is only after the EDA, when a
sChOIU has not chosen a site, that the program assigns the
individual to a high priority site, as ~        by law.
Ovex B5 percent of providers are hired by individual conumanity

organizations. The communities receive notification that they

have been placed on the vacancy list at the beginning of the

placement cycle. The communities know thaz they have a one-in

three chance of recmiting an NIISCscholar, since there are

three times as many vacancies as scholars. As the hiring
authority, they are recruiting   scholL-s as well as others who
may wish to senre in their communities. As a result, some
sites will fill   theL’ vacancies with providers other than NESC
schola~s. For this reason, scholars are encouraged to pursue
theti options as soon as they get the HPOL. NESC’s gOal is to
help fill all   of the vacancies in the neediest c~ties,
while matching all obligated scholars.
The program has continued to expand the n~ez    of sites that
axe available through loan repayment, enhanctig eff orta to
target communities of greatest need. For the last three
years, there have been approtitely t&ee vacancies available
for each NKSC loan repayment contract. LOan repayment
applicants are not obligated until they match to a site end
have a loan repayment contract approved by DSU1. While loan
repayment sites may be less needy than scholar sites, they are
still in underserved communities and may be less “ideal- than
many candidates would prefer. Loan repayers may also match to
HPOL sites.

The loan rapayment program is an important retention and
recruiumnt program. Many providers, who are already on sixe
view loan repayment as the carrot” that will entice them to
                           �


stay. In addition, the loan repayment program has been a
significant recruiting tool for NliSCsemice.      Loan repayers
have already made a conmitmenc to primary care by virtue of
their chosen discipline. The loan repaymenx program has, in
most cases, provided tie incenzive that was needed    to attract
these provide=s co underservedareas. The retention rate for
loan repaye=s is about double that of schol&-s. msed on data
fmm focus groups, the NHSC believes chat loan repayment is a
c=itical consideration in site selec=ion. Once on-site,
providezs become incegzatedinto the community, which is a





                          B-5

                                                                                               5


     c=icical facmx in any decision to r~in                          be~nd   an obligation
     period.
     The OIG report’s characterizationof the scholarship and loan

     repayment programs as being resperdvely more competitive and

     less r%gorous does both programs a dissmice.     The progrmns
     are comphmsmary.    In the case of schoIL-s,  the application
     and interriew process ameuupts to ass~e that the stridenthas
     a clear understanding of what embarking on a career ixIp=
     care se-ice in undersenmd   arwas means,  and whaz tbe
     obligation helshe is about to incur smalls. The scholar will
     bcur the obligation several years prior to completing his/her
     education and beginning se~ice. In the case of loan
     repeyers, they are not obligated until they match to a site

     and sign an agr~nt    with DS”4.

     The  NESC has noted a progressive in~ase in retention rates
     over the last few years. Of the universe of scholars and loan
     repeyers  who have completed their obligations, increasing
     numbers have agreed to continue s-ice to the unders~ed
     beyond their obligation period at their current site: 39

     percent in = 1991, 52 percent izIPY 1992, and 58 percent in

     FY 1993. Zn FY 1993, of the 58 percent   which were retained,
     43 percent of the scholars and 73 parcmt of the loan repa~s
     stayed on at theix site afte: completig   their   obligation.
     There -re others who were “ re~ed      in smite     to the
                                                          �


     undersezwed, moving into anothm- underse~       coxnunity, taking
     a public health position, or teaching primary care h an
     academic set-~g.

     The way in which providers are treated, or perceive to be
     treated, by the programs in which they are seining is crncial
     to rexention. Improving employerqioyee     relationships is
     critical in any professicm. The NRSC is taking steps to
     prepare providers and commnity orgmzations to facilitate
     retention, and will delete sites from tie vacancy lists which
     routinely do not manage theix practices appropriately.

     The statute mandates fuU-time clinical practice.“ The intent
                                   �


     was based on the belief that underse~    communities ~
     full-time providers to improve the health of the c~       v“
     Any change to the r~ent       would necessitate a change in
     legislation. Full-time practice is defined as a minimum of
     45 weeks a year in practice. Obligated providers are
     permitted up to 7 weeks a year off-site for vacazion,  sick
     leave,     andtor    continuing   professional           education.     The   NIiSC has
     provided      more   than S1 million      annually        for   continuing
     professional education fox the last several years. Deferments
     are provided for residency ~-aining, and all NESC providezs
     are now required by statuze to be fully qualified in theiz
     professional specialty before they stazx sezzice.




                                         B-6



——
                                                                       6
  _in9     1993 the NESC matched 193 schol~s and placed 477 loan
  repq yers. In addition, 406 scholeships were a~ed.
  NHsc. ea
        . ~C”4   its site develo~mt conmam                 The
                                              and other ongohg
  zem~l       assismce efiom     to impmve the matmg    process
  in future placmt      cycles, while rema*g   true to the
  mission of se~ing those most in need.
  The OIG re~m      notes that p= a~l~    o~y a ml      n-       of

  providers to exercise the private pra~ce      option (PPO). The

  reason that there are not more PPO sites is that HESC

  prov>de.% generally work in areas which cannot carrently

  suppoxz an econ~cally viable practice.

 miss+on to locate prx~        care pmidm    fiItmas
                                                  is the  NRSC’S

                                                       where   oth~
  prozuciershave chosen not to go, and where healti care
  s-ices     would not otherwise be availble.
 as a surprise    to provide= to fiad that the c It should not come

 wMch they are se=ing are frequently economictily OImunities
                                                         and in
 educationally disadvantigti.
 it can continue    to at~-ae. pr~However,
                                       CaXSthe NXSC believes
                                            pmide~     who want that
                                                                  to
 m whm      they are most needed to se~e wh~e ~q       ~    -y
 make a difference.
AS noted in Our coaanentsto recmendation n-          1 abwe,
NPs, Phe, and CNMs frequently face lic~,
acceptance, and site pratice ~m.         The ~=~~g

*th professional orgmzatiom,     States and State licensing

btmrds, and =~ties      to remove these Prtwttce   barriers     and

allow for the ftil utilization of these healti Providem as

members of intetisc~pltiq    practice teams.

                                                The NESC is also

working with PIE Regional Offices and primary care
associations to ensw   that all pmidm      are placed

situations where they can prac-ticethe full scope of in

professions.                                             their


OIG Reconunendati

               on

3.	   The PHs should develop more ac~ate,    complete,
      to-date vaca.xq lists.                             and up-
PHS COnunent


We Concur.  The NHSC has improvti and till contiue to ~~
the vacanq list developenz   and u+atig    process.
NXSC recruiters in the field are ustig laptop cqtersCurrently,
                                                         to

access information in a c

                         ~ty      profile progrmn.

The NHSC continues to enhance the c~uterization of vacancy

liszs to enswe that they are as up-to-date as possible. It
i$ phmning to provide descziptLve profiles of sizes which
would not only desc:ibe the communiq, but also reflect the
staffing and system of c~-e in that site.
                                            The NHSC is also





                         B-7
                                                                   7


exploring alternative ways to have profiles of scholars

available to sites to assisz them in the matching process. On

a pilot basis, the N?ISCis looking at developing an on-line,

continuously updated file of available, eligible facilities.

The basis for these improvemmt~ ia to assure that all

Cusxomezs of NRSC’S services are as infomed    as possfile

regarding vacancy data. The better infozmazion    potential

providers and sites have prior to the beg~      g of the site

selection process, the more successful the mazch. T5e program

welcomes additional suggestions for ~mving      customer

satisfaction.


UG   Recomnendation

4.   The PHS should use direct   deposit   to   pay providers.
PRs Conlm
        ent

We concur and, as noted at the etit conference with staff from
OIG, actions have already been taken to address this issue.
For NHSC scholars,  the DSLR has the fiduciary responsibility
for the allocation of funds to pay schools for tuition    and
fees,  and stipends for students. The M       Division of Fiscal
Services handles the actual payments for the tuStion and fees
to educational institutions upon receipt and ve=ificatioa of
invoices. The PES Division of Commissioned Personnel
processes  the monthly stipends for students.    A test program
to implement direct deposit of stipend checks is mzrently
under development. It is expected that tMs system will be
fully implemented in the first half of 1994.

Concerning loan repayments, DSLR prepares computerized payment

work sheets that account for what is due to each participant

at the point of contract between the -C    and the participant.

These work sheets include information on the loan repayment

amount, appropriate interest, and tax payments. The Division

of Fiscal Sexwices handles the actual disbursements. These
procedures have resulted in a better accuracy rate in loan
repaymexxs than ever experienced ~fore.

It is the program’s experience that most complaints from
providers about not receiving payments can be ‘~aced to the
providers’ failure   to repmx their  correct address to the
program. In nearly all cases of payment complaints reviewed
by the program staff,   the check v&- not delivered because of
an incorretn or old address and had been retuzmed to the
Treasury Deparzaaent.

The NHSC believes that it has taken appropriate actions to
assure accurate and timely payments to loan repaynem program




                          B-8

. .

                                                                                    8


      ~cipanzs.      Hovever, they will continue to seek be=%er and
      more accurate methods of payment.

      ~

      F-e    1.   th~

      To present a more complete picture, we suggest that th$s
      mmPh      mention tie sho=ge of primary care providers.
      2aae   2.   fir st    naraaranh
      This paragraph does not fully recognize the impo~t

      contributions that NPs, PM., and CNHs make as a part of tbe

      pdmary care interdisciplinaryteam. Indeed, individuals in

      these disciplines are the providers of choice in some
      cmmnnicies.

      ~aa e 2.     *p.o~~        Ovezsig    ht”    fk~t paraaradl

      The Office of State Activities is not a formalized
      organizational unit in HRSA’S Boreau of PAmazy Health Care
      and does not have any responsibility for NHSC activities.

      ?aae 3* f-={      t   mra arauh

      WMle        PHS is       required   to place those with a scholarship
      obligation, each individual is given a tie month period                 in
      Whitb       to select       a size   from the Eaalth Professionals
      opportunity           List    which  has been approved for NHSC assignment.
      These individuals then negotiaze with the site facilities over
      possible assignment. If an obligated scholar fails                to find a
      site during this nine month period, he/she is then assigned to
      a site.
      paae 5.      irst Baraarmh

      The NESC makes concerted efforts to ensure that providers and
      factiities get started on the right foot. The first year at
      the site is the most critical in that regard. We provide
      orientation sessions for new providers, and are expnding
      effo~s zo assure that field assignees !mw who their first
      contact is for questions or concezm.

      Paae   7, Zi=st       sentences      of    the first and second uaraaranh s
      These statements confuse the older pm~m    md cohorts studied
      by “he OIG, from che current effoms of the revitalized NHS&.
      Increasing contac: with field provide.% is one of the
      cornerstones of the “new” NIISC.




                                                B-9

.   . .




          P-=    8,   second Daraar?@
          We agree that NESC expansion will require -==
          Communication and coordinationamong PES components and have
          taken some s@nifLcant steps to ~rove     commuxdcation and
          coo~tion.      Through work planaing processes, the NESC is
          CIUIY   defining responsibilitiesas NESC expansion efforts
          are nnde-en.     Pmgrsm officials are examkin gwaysto
          econtx&ize,sueamlbe   and target our res~es     through
          impming   our daza and inforznationsystems, and s~llfying

          repotig   ~ts.           While new resourcas may be needed to

          handle a major expansion of the NESC, we believe that current

          resources can be used more efficiently.


          Paae 9~ second ~araarau~
          Efforts     are underway ia the NESC to improve                 the     percentage     of

          facility directors who are satisfied with the completeness and

          accuracy      of   iafomation    concerning        U       facilities       that is

          contained      h    the        repagment VaCaacy list. our

                                    EPoL and    loan
          cozments on the OIG report’s ~dations        discuss act$ons

          taken or planned m provide zIore ac~ze    and timely

          information        to both   prmidara        and facilities.





                                               B-10
